OIG Audit Report GR-40-00-001
Office of Community Oriented Policing Services
Grants to the Cleburne County, Alabama, Sheriff's Department
Audit Report GR-40-00-001November 1999Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of two grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS), to the Cleburne County, Alabama, Sheriff's Department (grantee).  The grantee received a $53,759 grant to hire or rehire one sworn police officer under the Funding Accelerated for Smaller Towns program, and a $53,941 supplemental grant to hire or rehire one sworn police officer under the Universal Hiring Program.  The purpose of the additional officers is to enhance community policing efforts.

In brief, our audit determined the grantee:


Claimed and was reimbursed $2,486 in excess of allowable costs.
	Did not increase its share of the costs of grant-funded positions over the life of the grants.	
	Did not submit, or submitted late and incomplete monitoring reports to COPS.	
	Did not submit, or submitted late and inaccurate financial reports to the Office of Justice Programs.
	Had not implemented the community policing activities described in its grant application. 

These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.